U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 23, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Abdulla v. Garland, No. 20-1492
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 19, 2021.
The government’s response is now due, after one extension, on June 28, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
July 28, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1492
ABDULLA, ABDULMALIK MAHYOUB MULHI
MERRICK B. GARLAND, ATTORNEY GENERAL

JULIE A. GOLDBERG
GOLDBERG & ASSOCIATES
5586 BROADWAY
THIRD FLOOR
BRONX, NY 10463
718-432-1022
USCIS@GOLDBERGIMMIGRATION.COM

